           U.S. Department of
                                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General

Subject:   INFORMATION: Quality Control Review of                               Date:   May 19, 2010
           Single Audit on the Washington Metropolitan
           Area Transit Authority
           Report No. QC-2010-067

  From:    Earl C. Hedges                                                      Reply to
           Program Director for Single Audit                                   Attn. of:   JA-20

    To:    Regional Administrator, FTA, Region III

           The U. S. Department of Transportation (DOT) is the cognizant Federal single
           audit agency for the Washington Metropolitan Area Transit Authority (Authority).
           This report presents the results of our Quality Control Review of a single audit
           performed by Clifton Gunderson, LLP on the Authority for the fiscal year ending
           June 30, 2009. During this period of time, the Authority expended about
           $281 million from three DOT grant programs.
             DOT Operating               CFDA*     Program               FY 2009     Major Direct
             Administration                #        Name               Expenditures Program Award
               Federal Transit                    Capital Investment
                                         20.500                        $130,937,407        Yes     Yes
               Administration                       Grants Program
               Federal Transit                      Formula Grants
                                         20.507                        $148,696,139        Yes     Yes
               Administration                          Program
              Federal Highway                     Highway Planning
                                         20.205                          $1,084,063        No      Yes
               Administration                      and Construction

           * Catalogue of Federal Domestic Assistance

           The Office of Management and Budget (OMB) Circular A-133, “Audits of States,
           Local Governments, and Non-Profit Organizations;” requires the auditor to render
           an opinion on the entity’s financial statements, identify potential inappropriate use
           of Federal funds, and report internal control and compliance deficiencies that
           affect Federal grant programs.

           Clifton Gunderson rendered an unqualified (clean) opinion on the Authority’s
           financial statements and compliance for major programs and did not question any
           costs concerning FTA grant programs. However, Clifton Gunderson made a
                                                                                                          2
recommendation to correct the following compliance deficiency that directly
affects FTA programs. 1

      • Not obtaining approval from the cognizant Federal agency prior to
        applying its fiscal year 2009 indirect cost rate.

The Authority's timely correction of this deficiency is critical to ensure its proper
use of the upcoming American Recovery and Reinvestment Act funds.

The purpose of our review was to determine: (1) whether the work complied with
Generally Accepted Government Auditing Standards as prescribed by the
Comptroller of the United States; the Single Audit Act of 1984, as amended (Act);
and OMB Circular A-133 and (2) the extent to which we could rely on the
auditor’s work.

RESULTS

Based on our Quality Control Review, we determined that Clifton Gunderson's
work generally met the requirements of Generally Accepted Government Auditing
Standards, the Act, and OMB Circular A-133. We found nothing to indicate that
Clifton Gunderson's opinion on the financial statements or reports on internal
control and compliance were inappropriate or unreliable.

However, we identified audit documentation deficiencies and the need to expand
compliance testing in future audits. Based on explanations provided by Clifton
Gunderson in response to our concerns, we determined that these deficiencies did
not alter the overall audit results. Yet, to adequately support audit conclusions,
these deficiencies should be corrected in future audits. The deficiencies are
related to the following areas:

1.      Testing of Compliance with the Americans with Disabilities Act (ADA)
         of 1990.
        Clifton Gunderson did not perform compliance testing to determine if the
        Authority's procurement of vehicles and facilities complied with ADA
        requirements. During our review, Clifton Gunderson informed us that they
        noted the ADA compliance statements were in the Authority's bid packages
        as part of their internal control testing. Clifton Gunderson agreed to perform
        compliance testing of the ADA compliance requirement in future audits.

2.      Summary Schedule of Prior Audit Findings and Follow-up.
        Clifton Gunderson did not document the specific audit procedures performed
        to ensure the prior audit finding concerning the safeguarding of equipment
        purchased with Federal funds was corrected. During our review, Clifton

1
    We advised FTA about this deficiency in a separate memorandum. The single audit report issued by Clifton
    Gunderson is available upon request. Requests should be sent to singleauditrequest@oig.dot.gov.
                                                                                3
     Gunderson described the procedures they used to determine that this finding
     had been corrected by the Authority. They agreed to improve their
     documentation in future audits.

3.   Compliance Requirements Deemed Not Applicable to the Major
     Program.
     The OMB Compliance Supplement prescribes 14 specific requirements that
     need to be tested, unless deemed not applicable to the grant program by the
     auditor. Clifton Gunderson’s audit workpapers did not provide convincing
     and supportive reasons why two compliance requirements for the major
     program were deemed not applicable. Clifton Gunderson agreed they will
     document this in the future.

If you have any questions concerning this report, please call me at (410) 962-1729
or John R. Sysak, DOT National Single Audit Coordinator, at (410) 962-2630.

                                        #

cc: Audit Liaison, FTA, TBP-11
    Audit Liaison, OST, M-1
    Chief Finance Officer, Washington Metropolitan Area Transit Authority
    Inspector General, Washington Metropolitan Area Transit Authority
